No. 19-309
IN THE

Supreme Court of the United States
___________

JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
___________

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
___________

BRIEF OF AMICI CURIAE FORMER CHIEF
JUSTICES OF THE DELAWARE SUPREME
COURT IN SUPPORT OF PETITIONER
___________

VIRGINIA A. SEITZ*
KATHLEEN MORIARTY MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Amici Curiae
January 24, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

INTEREST OF AMICI CURIAE ..........................

1

SUMMARY OF ARGUMENT ..............................

3

ARGUMENT .........................................................

6

I. OUR CONSTITUTIONAL TRADITION
EMBRACES
THE
SELECTION
OF
JUDGES BASED ON PARTY AFFILIATION ..............................................................

6

II. DELAWARE’S
CHOSEN
JUDICIALSELECTION PROCESS IS CONSTITUTIONAL .........................................................

12

A. Delaware’s Judicial-Selection Process Is
Within Its Authority As A Sovereign And
Has Produced An Excellent Judiciary .....

12

B. This Court’s Decisions In Elrod And
Branti Confirm The Constitutionality Of
Delaware’s Judicial-Selection Process .....

16

CONCLUSION .....................................................

20

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

Branti
v.
Finkel,
445
U.S.
507
(1980) ................................................. 5, 6, 17, 18
Burson v. Freeman, 504 U.S. 191 (1992) ......
7
Elrod v. Burns, 427 U.S. 347 (1976) ............. 5, 17
Gregory v. Ashcroft, 501 U.S. 452
(1991) ..................................................... 5, 12, 18
Kurowski v. Krajewski, 848 F.2d 767 (7th
Cir. 1988) ....................................................
17
Mistretta v. United States, 488 U.S. 361
(1989) ..........................................................
7
Newman v. Voinovich, 986 F.2d 159 (6th
Cir. 1993) ............................................ 11, 18, 19
Town of Greece v. Galloway, 134 S. Ct. 1811
(2014) ..........................................................
7
CONSTITUTION
Del. Const. art. IV, § 3...................................

3

SCHOLARLY AUTHORITIES
Jonathan H. Adler, The Senate Has No
Constitutional Obligation to Consider
Nominees, 24 Geo. Mason L. Rev. 15
(2016) ..........................................................
9
Tracey E. George, Judicial Independence
and the Ambiguity of Article III
Protections, 64 Ohio St. L.J. 221 (2003) .... 8, 9
Sheldon Goldman, Judicial Appointments
to the United States Courts of Appeals,
1967 Wis. L. Rev. 186 (1967) .....................
9
Vicki C. Jackson, Packages of Judicial
Independence: The Selection and Tenure
of Article III Judges, 95 Geo. L.J. 965
(2007) ..........................................................
8

iii
TABLE OF AUTHORITIES—continued

Page

Devera B. Scott et al., The Assault on
Judicial Independence and the Uniquely
Delaware Response, 14 Penn St. L. Rev.
217 (2009) ...................................................
15
Myron T. Steele & J. W. Verret, Delaware’s
Guidance: Ensuring Equity for the
Modern Witenagemot, 2 Va. L. & Bus.
Rev. 189 (2007) ...........................................
19
Leo E. Strine, Jr., Delaware’s CorporateLaw System: Is Corporate America
Buying an Exquisite Jewel or a Diamond
in the Rough? A Response to Kahan &
Kamar’s Price Discrimination in the
Market for Corporate Law, 86 Cornell L.
Rev. 1257 (2001) .........................................
15
Leo E. Strine, Jr., The Delaware Way: How
We Do Corporate Law and Some of the
New Challenges We (and Europe) Face, 30
Del. J. Corp. L. 673 (2005) ....................... 14, 16
Leo E. Strine, Jr., If Corporate Action Is
Lawful,
Presumably
There
Are
Circumstances in Which It Is Equitable to
Take That Action: The Implicit Corollary
to the Rule of Schnell v. Chris-Craft, 60
Bus. Law. 877 (2005) .................................
19
E. Norman Veasey, The Drama of Judicial
Branch Change in This Century, 17 Del.
Law. 4 (1999) ..............................................
15
E. Norman Veasey with Christine T. Di
Guglielmo, What Happened in Delaware
Corporate Law and Governance from
1992-2004? A Retrospective on Some Key
Developments, 153 U. Pa. L. Rev. 1399
(2005) ..........................................................
15

iv
TABLE OF AUTHORITIES—continued
OTHER AUTHORITIES
Page
Alicia Bannon, Brennan Ctr. for Justice,
Choosing State Judges: A Plan for Reform
(2018),
https://www.brennancenter.org/sites/defa
ult/files/publications/2018_09_JudicialSel
ection.pdf .................................................. 10, 11
Rachel Baye, Ctr. for Pub. Integrity,
Donors, Friends of Governors Often Get
State Supreme Court Nod (May 19, 2014),
https://publicintegrity.org/federalpolitics/donors-friends-of-governors-oftenget-state-supreme-court-nod .....................
10
Jess Bravin, President Obama’s Supreme
Court Nomination of Merrick Garland
Expires, Wall St. J. (Jan. 3, 2017) .............
9
Douglas Keith & Laila Robbins, Brennan
Ctr. for Justice, Legislative Appointments
for Judges: Lessons from South Carolina,
Virginia, and Rhode Island (2017),
https://www.brennancenter.org/sites/defa
ult/files/analysis/North_Carolina.pdf ........
10
William H. Rehnquist, The Supreme Court
(1987) ........................................................ 7, 8, 9
Joseph T. Walsh & Thomas J. Fitzpatrick,
Jr., Judiciary: Article IV, in THE
DELAWARE CONSTITUTION OF 1897: THE
FIRST ONE HUNDRED YEARS 130 (Harvey
Bernard Rubenstein ed., 1997) ................ 13, 14

INTEREST OF AMICI CURIAE1
Amici curiae are the Honorable Myron T. Steele,
the Honorable E. Norman Veasey, and the Honorable
Leo E. Strine, Jr., all former Chief Justices of the Supreme Court of Delaware.
In 2000, Myron T. Steele (Democrat) was nominated to the Supreme Court of Delaware by Governor
Thomas Carper (Democrat). Governor Ruth Ann
Minner (Democrat) elevated him to the position of
Chief Justice in 2004, where he served until 2013. He
had previously served on the Superior Court of Delaware, as a judge of the Kent County Superior Court
and as Vice Chancellor of the Delaware Court of
Chancery. Prior to his appointment to the Superior
Court, he served as chair of the Democratic Party in
Kent County. He was appointed to the Kent County
Superior Court by Republican Governor Mike Castle
to maintain that court’s political balance. During his
tenure as Chief Justice, he was President of the Conference of Chief Justices and Chair of the National
Center for State Courts Board of Directors. Former
Chief Justice Steele teaches, speaks, and publishes
frequently on issues of corporate law.
In 1992, E. Norman Veasey (Republican) was nominated to be Chief Justice of the Supreme Court of
Delaware by Governor Mike Castle (Republican). He
served in that position until 2004, when his twelvePursuant to Supreme Court Rule 37, amici curiae state that
no counsel for any party authored this brief in whole or in part,
and that no entity or person other than amici curiae and their
counsel made any monetary contribution toward the preparation
and submission of this brief. Both petitioner and respondent
consented to the filing of this brief.
1

2
year term as Chief Justice expired. During his tenure
as Chief Justice, then-Governor Minner awarded
Chief Justice Veasey the Order of the First State, the
highest honor the Governor can bestow. Like Chief
Justice Steele, Chief Justice Veasey was President of
the Conference of Chief Justices and the Chair of the
National Center for State Courts Board of Directors.
He had previously served as Deputy Attorney General and Chief Deputy Attorney General of Delaware.
Former Chief Justice Veasey teaches, speaks, and
publishes frequently on issues of corporate governance, ethics, and professionalism.
In 2013, Leo E. Strine, Jr. (Democrat) was nominated to be Chief Justice of the Supreme Court of
Delaware by Governor Jack Markell (Democrat); he
was confirmed in 2014 and served until October 2019.
In December 2000, Governor Carper awarded him the
Order of the First State. Chief Justice Strine had
previously served on the Delaware Court of Chancery
from 1998 through 2014, first as Vice Chancellor and
then as Chancellor. He also was the special judicial
consultant to the ABA’s Committee on Corporate
Laws. Before his judicial career, he was Counsel to
Governor Carper, responsible for legal advice and policy coordination. Like his predecessors, former Chief
Justice Strine teaches, lectures, and publishes frequently on the subjects of corporation law and the
role of the judge.
All three former Chief Justices have lengthy and
deep experience within the Delaware judiciary, in
corporate law practice, in public service for the State,
and in national organizations focused on the administration of justice. Each has also studied and written
about the Delaware judiciary. Accordingly, amici are
uniquely positioned to address the importance of Del-

3
aware’s judicial-selection provisions to the State, its
political culture and processes, and its judiciary.
Specifically, amici can speak to the legitimacy of
the consideration of political party affiliation in the
judicial-selection process that States, including Delaware, have employed since the Founding—processes
the court of appeals’ decision calls into doubt. Moreover, within this historical context, amici explain that
Delaware’s judicial-selection process embodies the
State’s legitimate choice about the appropriate balance between independence and democratic accountability in the judiciary. Finally, amici show that, operating within the traditional methods of judicial decision-making Delaware judges (like all judges) make
decisions that determine or affect policy on important
and controversial issues, particularly when making
common law. Accordingly, the court of appeals’
view—that party affiliation may not be considered in
judicial selection because judges do not make law—is
incorrect and misunderstands this Court’s precedent.
SUMMARY OF ARGUMENT
Under Delaware’s Constitution, the Governor appoints judges for twelve-year terms, subject to confirmation by a majority of the Senate. Del. Const. art.
IV, § 3. The Governor’s appointment power is limited
by the requirement that no more than a “bare majority” of judges on the Delaware Supreme Court and the
principal lower courts may be affiliated with “one major political party,” while the other judges “shall be of
the other major political party.” Id. The two major political parties in Delaware today are the Democratic
Party and the Republican Party. Thus, the practical
effect of these provisions is to require the Governor to
fill a judicial vacancy with a Democrat or a Republican, depending on the political affiliation of the other

4
judges. This has been the lasting effect of the judicial
selection system under the Delaware Constitution
since 1897, a period of more than 122 years of bipartisan and respected jurisprudence.
The Third Circuit readily acknowledged that these
provisions have given Delaware “an excellent judiciary” that has earned “nearly universal” praise for its
fairness, efficiency, and “‘national preeminence in the
field of corporation law.’”2 The court held, however,
that the provisions “must be stricken” from the
State’s Constitution. The court concluded that Delaware’s judicial-selection process violates the First
Amendment of the U.S. Constitution by prohibiting
the governor from appointing a judge due to his or
her “affiliation with a particular political party.” Pet.
App. 29a, 35a. There are compelling reasons for this
Court to reverse that decision.
First, the decision below ignores the Nation’s
longstanding historical use of party affiliation in the
selection of judges to federal and state courts and the
legal significance of this history. The method used to
achieve Delaware’s balanced bipartisan judicial system—the selection of judges based on party affiliation—is both widespread and longstanding. From the
founding of the country through today, party affiliation has frequently—indeed, almost universally—
been used as a criterion for selecting or rejecting
judges within the United States. In some states, the
voters in partisan elections choose judges. In others,
Pet. App. 38a-39a (McKee, J., joined by Restrepo and
Fuentes, JJ., concurring) (quoting William H. Rehnquist, Chief
Justice of the U.S., Address at the Bicentennial of the Delaware
Court of Chancery (Sept. 18, 1982), in The Prominence of the
Delaware Court of Chancery in the State-Federal Joint Venture
of Providing Justice, 48 BUS. LAW. 351 (1992)).
2

5
judges are appointed by governors who often exercise
their discretion to select or reject individual candidates based on whether they are affiliated with, or
supported by, a particular party. Federal judges, too,
are usually selected by the President—and sometimes accepted or rejected by the Senate—on partisan
grounds. See infra § I.
The Third Circuit’s decision that Delaware’s judicial-selection process is unconstitutional because it
requires that a nominee be the member of a particular party would render unconstitutional any system
in which party affiliation is a prerequisite for nomination, whether that requirement is imposed by positive law, or by the policy of the President or governor
who makes the nomination, or by the voters who pull
the lever for a judicial candidate based on his or her
party affiliation. Yet the Third Circuit’s decision fails
to recognize the ahistorical nature of its ruling.
Second, the decision below fails to respect Delaware’s sovereign authority to structure its judiciary.
The decision cannot be reconciled the Court’s analysis
in Gregory v. Ashcroft, 501 U.S. 452, 463 (1991),
which instructs federal courts to apply “less exacting”
scrutiny to, and thus give more deference to, state
constitutional provisions establishing the qualifications of judges. Delaware’s constitutional judicialselection process is the product of a thoughtful political choice. It has “historically produced an excellent
judiciary,” Pet. App. 38a, that is lauded for the competence and impartiality of its judges, and has resulted in a centrist jurisprudence that enhances public
confidence in the judiciary and yields significant benefits to the State as a whole, infra § II.A.
Finally, the court of appeals misunderstood and
misapplied this Court’s decisions in Elrod v. Burns,
427 U.S. 347 (1976) (plurality opinion), and Branti v.

6
Finkel, 445 U.S. 507 (1980). Those decisions address
when political party affiliation may be considered in
selecting executive and legislative branch employees.
They do not address the relevant constitutional history and tradition of judicial appointments, which reflect the judgment that judges should be accountable
to the people (in varying degrees depending on the
mode of selection) as well as independent in the execution of their role. Nothing in Elrod and Branti suggests that that judgment and longstanding tradition
violate the First Amendment. To the contrary, Branti
recognized that it is appropriate to select precinct
election judges based on party affiliation. 445 U.S. at
518.
Moreover, the court of appeals failed to grapple
with the extent to which judges—within the constraints of due process and traditional methods of judicial decision making—make law in interpreting and
applying statutes and constitutional provisions and,
most obviously, in developing the common law. The
Third Circuit’s decision is, as a result, inconsistent
with this Court’s decisions, with devastating effect on
Delaware and far-reaching implications for states
and the country as a whole. See infra § II.B. It should
be reversed.
ARGUMENT
I. OUR CONSTITUTIONAL TRADITION EMBRACES THE SELECTION OF JUDGES
BASED ON PARTY AFFILIATION.
More than 100 years ago, Delaware chose to strive
for a politically balanced judiciary. The method it
chose to achieve this goal—the selection of judges
based on party affiliation—is consistent with the
longstanding and common practice in most other
states and in the federal system. As we now show, in

7
holding that party affiliation cannot be an appropriate qualification for selecting a judge, the Third Circuit entirely ignored the Nation’s long history and
tradition of selecting federal and state court judges
based on party affiliation and support.
By itself, that is reason to reverse the court’s judgment, because “a practice that was accepted by the
Framers and has withstood the critical scrutiny of
time and political change” is likely to be constitutional. Town of Greece v. Galloway, 134 S. Ct. 1811, 1819
(2014) (Establishment Clause). See also, e.g., Burson
v. Freeman, 504 U.S. 191, 206 (1992) (plurality opinion) (deferring to the “widespread and time-tested
consensus” that a prohibition on political speech and
campaigning around polling booths is necessary to
prevent “voter intimidation and election fraud”); id.
at 214 (Scalia, J., concurring in the judgment) (refusing to invalidate restrictions that are a “venerable”
part “of the American tradition”); Mistretta v. United
States, 488 U.S. 361, 398-99 & n.22 (1989) (“contemporaneous practice by the Founders themselves is
significant evidence” that it is consistent with the
separation of powers).
The historical practice of selecting judges on partisan grounds is a permissible byproduct of the Founders’ view that the judiciary should be both accountable to the people and independent of the other
branches. The U.S. Constitution gives the people a
“say” in the selection of federal judges indirectly,
through the election of the officials who appoint and
confirm them; thus, courts are accountable. However,
once selected, judges and courts operate independent
of the other branches of government and “of popular
opinion when deciding the particular cases or controversies that come before them.” William H.
Rehnquist, The Supreme Court 236 (1987).

8
Like federal judicial-selection processes, state judicial-selection processes have long been designed to be
both accountable and independent. Although States
balance these goals differently, and use somewhat
different procedures, partisan politics has long played
a role in judicial selection of state and federal judges.
Indeed, from the founding of the country, those
with the power to select judges have used party affiliation or support as a criterion for selecting or rejecting judicial nominees. John Marshall, “universally
referred to as ‘the great Chief Justice’” of this Court,
was selected in that manner. See Rehnquist, supra,
at 103. He was nominated to fill a vacancy created by
the resignation of Chief Justice Oliver Ellsworth in
December 1800. “By then it already appeared that
the election of 1800 had gone against the Federalists,
and John Adams felt a strong need to put a dedicated
Federalist on the bench before the government should
come into the hands of Jefferson and the Republicans.” Id.
Since then, Presidents have looked “almost entirely
to their own party for appointments to the federal
bench despite pleas from various quarters for bipartisan—or apolitical—appointment.” Tracey E. George,
Judicial Independence and the Ambiguity of Article
III Protections, 64 Ohio St. L.J. 221, 227 (2003). President Franklin Roosevelt “almost never looked outside the Democratic Party for judicial appointments.”
Id. “President Reagan appointed no Democrats to the
courts of appeals.” Vicki C. Jackson, Packages of Judicial Independence: The Selection and Tenure of Article III Judges, 95 Geo. L.J. 965, 978 n.47 (2007).
“From FDR’s first term through [President] Clinton’s
last, 91% of Democratic appointees have been Democrats and 92% of Republican appointees have been
Republicans.” George, supra, at 227.

9
Even when Presidents look outside their own party
for judicial nominees, they nevertheless often base
their decisions on the nominee’s party affiliation. For
example, President Truman nominated Republican
Senator Harold Burton to fill the vacancy created by
the retirement of the lone Republican Justice on the
Court whose other members had all been appointed
by Franklin Roosevelt, because there was
“[c]onsiderable public sentiment” that the “new justice ought to be a Republican.” Rehnquist, supra, at
86. And “[f]acing a Senate that was split down the
middle, and an impending election, President Herbert
Hoover, a Republican, decided to nominate a prominent Democrat,” Benjamin Cardozo, “to fill the seat
vacated by Justice Oliver Wendell Holmes.” Jonathan
H. Adler, The Senate Has No Constitutional Obligation to Consider Nominees, 24 Geo. Mason L. Rev. 15,
28 (2016).
These examples highlight the role of the Senate,
which has long “appreciated the patronage potential
of [its] Article II role in judicial appointments.”3
“There is a long history of Senate refusal to fill judicial vacancies, including by a simple refusal to consider Presidential nominees,” based on their party
affiliation. Adler, supra, at 26-27 (discussing instances where the Senate, controlled by Democrats, refused to take action on Republican Presidents’ nominees); see also, e.g., Jess Bravin, President Obama’s
Supreme Court Nomination of Merrick Garland Expires, Wall St. J. (Jan. 3, 2017) (discussing RepubliGeorge, supra, at 234 (discussing role of “Senators, particularly from the President’s party” in influencing “the selection of
nominees to the lower federal courts”); see also, e.g., Sheldon
Goldman, Judicial Appointments to the United States Courts of
Appeals, 1967 Wis. L. Rev. 186, 189, 199-200 (1967) (same).
3

10
can-controlled Senate’s refusal to take action on the
Supreme Court nominee of a Democratic President).
State judges, too, are frequently selected based on
party affiliation. Supreme court justices in six states
are elected in partisan elections, where voters choose
judges from candidates affiliated with a political party.4 In two states, justices are selected by the legislature, which typically means that successful judicial
candidates must obtain the support of the majority
party.5 And twenty-seven states use some form of gubernatorial appointment system.6 In many of these
states, the governor must appoint someone from a list
of judicial candidates screened by an independent
nominating commission. See Bannon, supra note 4, at
3. Even there, however, governors often make selections based on party affiliation and political support.7
4 See Alicia Bannon, Brennan Ctr. for Justice, Choosing State
Judges: A Plan for Reform 3 (2018), https://www.brennancenter.
org/sites/default/files/publications/2018_09_JudicialSelection.pdf.

See Bannon, supra note 4, at 3; see also Douglas Keith &
Laila Robbins, Brennan Ctr. for Justice, Legislative Appointments for Judges: Lessons from South Carolina, Virginia, and
Rhode Island 3 (2017), https://www.brennancenter.org/sites/
default/files/analysis/North_Carolina.pdf (viable judicial candidates in South Carolina must secure “commitments” from state
legislators, while “in Virginia, the majority party selects judges
in closed-door caucus meetings”).
5

6 In seventeen of these twenty-seven states, justices are appointed by the governor for a set term and must be re-elected in
single-candidate retention elections (in sixteen states) or partisan retention elections (in one state) to continue for additional
terms. Bannon, supra note 4, at 3. In the remaining ten states,
judges are appointed by the governor and not subject to retention elections. Id.

See Rachel Baye, Ctr. for Pub. Integrity, Donors, Friends
of Governors Often Get State Supreme Court Nod (May 19,
7

11
Delaware’s judicial-selection process is unique in
that it is the Delaware Constitution—rather than the
governor’s personal decision—that requires consideration of the political party affiliation of a judicial
nominee. But there is no relevant distinction for First
Amendment purposes between Delaware’s process
and the process in a state like Ohio where the governor had a “practice of considering only members of
his party,” Newman v. Voinovich, 986 F.2d 159, 163
(6th Cir. 1993). See id. (rejecting First Amendment
challenge by judicial candidate from the other major
political party). In both situations, the decisionmaker for judicial appointments has excluded from
consideration candidates for judicial office based on
their political affiliation. And in both instances, the
decision-maker is a state actor subject to the requirements of the Constitution, however those requirements are construed in this setting.
The Third Circuit’s analysis would subject judicial
appointment processes that have existed since the
Founding of our federal and state governments to
First Amendment challenge. That circumstance by
itself strongly suggests that the decision below is
wrong.

2014), https://publicintegrity.org/federal-politics/donors-friendsof-governors-often-get-state-supreme-court-nod. Even a leading
critic of the election of state court judges agrees that the judicial-selection process should be “publicly accountable,” and recommends a system in which judicial candidates are screened by
an “independent, bipartisan judicial nominating commission”
and then appointed by the governor who “may consider whatever factors she wishes—judicial philosophy, political party membership, even personal friendship.” Bannon, supra note 4, at 6.

12
II. DELAWARE’S CHOSEN JUDICIAL-SELECTION PROCESS IS CONSTITUTIONAL.
The court of appeals’ judgment should also be reversed because it failed to respect Delaware’s sovereign authority to structure its judiciary and misunderstood this Court’s decisions in Elrod and Branti.
A. Delaware’s Judicial-Selection Process Is
Within Its Authority As A Sovereign And
Has Produced An Excellent Judiciary.
This Court has long held that “[e]ach State has the
power to prescribe the qualifications of its officers
and the manner in which they shall be chosen.” Gregory, 501 U.S. at 462 (alteration in original) (quoting
Sugarman v. Dougall, 413 U.S. 634, 647 (1973) (quoting Boyd v. Nebraska ex rel. Thayer, 143 U.S. 135,
161 (1892))). A state constitutional provision establishing the qualification of state judges is a constitutional provision “of the most fundamental sort for a
sovereign entity. Through the structure of its government, and the character of those who exercise
government authority, a State defines itself as a sovereign.” Id. at 460. A State’s power to prescribe the
qualifications of judges is therefore “exclusive, and
free from external interference, except so far as plainly provided by the Constitution of the United States.”
Id. (quoting Taylor v. Beckham, 178 U.S. 548, 570-71
(1900)).
The Third Circuit acknowledged Delaware’s constitutional judgment that the political balance requirement has been integral to the success of the Delaware
judiciary, but it failed to accord the State’s judgment
any weight in the First Amendment analysis. See
Pet. App. 39a-41a & n.5. That mode of analysis is
flatly inconsistent with this Court’s decision in Gregory, 501 U.S. at 463, which requires federal courts to

13
apply “less exacting” scrutiny to state constitutional
provisions establishing the qualifications of judges.
The Delaware Constitution has required a politically balanced judiciary since 1897. Pet. App. 3a-4a. The
adoption of this provision was no accident. It was the
considered response to the prior system in which
judges had been appointed by the governor for life,
without the need for confirmation by the Senate. See
Joseph T. Walsh & Thomas J. Fitzpatrick, Jr., Judiciary: Article IV, in THE DELAWARE CONSTITUTION OF
1897: THE FIRST ONE HUNDRED YEARS 130, 131 (Harvey Bernard Rubenstein ed., 1997). A few infirm
judges declined to retire, and there was debate in the
1897 Convention about how to improve the judiciary
and the judicial-selection process. Id. at 132. Some
urged Delaware to follow the trend in other states at
that time and switch to an elected judiciary, which
would directly reflect the will of the people. Id. Others countered that qualified members of the bar
would not subject themselves to the election process,
and that elections would result in politically oriented
judges. Id. Some urged the adoption of an appointive
system subject to Senate confirmation, while others
worried that there could be gridlock if the Senate
were controlled by a different political party. Id.
In the end, the Convention “adopted the system
that has endured to this day: appointment by the
governor for twelve-year terms subject to Senate confirmation.” Id. at 133. To this, the delegates added
the political balance requirement “in the face of the
widespread belief that every effort should be made to

14
ensure that the judiciary not be dominated by any political party.” Id. at 134.8
As the court below acknowledged, this selection
process “has historically produced an excellent judiciary” in Delaware. Pet. App. 38a. The political balance
requirement means that the governor cannot “stack”
the judiciary with members of his or her own party,
so the Delaware Senate feels less political pressure to
reject the governor’s judicial nominees in times of divided government.
In amici’s experience, this selection system has also
depoliticized the issue of judicial appointments in
Delaware. Because both major parties know that they
will have members on the judiciary, they have less
incentive to stake out partisan positions on the type
of judges they will appoint and to urge voters to vote
for a governor and senators who will select “their”
type of judges.
In addition, in amici’s view, the depoliticized nature
of the selection process has helped attract to the Delaware Bench quality lawyers who tend to be “a centrist group of jurists committed to the sound and
faithful application of the law.” Leo E. Strine, Jr., The
Delaware Way: How We Do Corporate Law and Some
of the New Challenges We (and Europe) Face, 30 Del.
J. Corp. L. 673, 683 (2005) [hereinafter Strine, The

The requirement that all judicial positions be filled from one
of the two “major” political parties is necessary to prevent the
prevailing political party from manipulating the “bare majority”
provision by making judicial appointments from non-major parties that share the views and positions of the prevailing party.
The court of appeals recognized this aspect of the constitutional
provision. See Pet. App. 34a.
8

15
Delaware Way].9 Delaware is a small state, with fewer than one million people and just three counties.
However, the “independent and depoliticized judiciary” has led, “in [our] opinion, to Delaware’s international attractiveness as the incorporation domicile of
choice.” E. Norman Veasey with Christine T. Di Guglielmo, What Happened in Delaware Corporate Law
and Governance from 1992-2004? A Retrospective on
Some Key Developments, 153 U. Pa. L. Rev. 1399,
1402 (2005). It may well be the central reason why
more than half of the Fortune 500 companies and half
of the New York Stock Exchange corporations are incorporated in Delaware. See E. Norman Veasey, The
Drama of Judicial Branch Change in This Century,
17 Del. Law. 4, 4 (1999).
Finally, Delaware has reasonably determined that
its judicial-selection system enhances the public’s belief in the fairness and legitimacy of the court system,
by depoliticizing appointments and limiting discussion of judicial appointments during political campaigns and by mandating selections across party
lines. See Devera B. Scott et al., The Assault on Judicial Independence and the Uniquely Delaware Response, 14 Penn St. L. Rev. 217, 244 (2009) (“[I]t is no
surprise that the public perceives Delaware courts as
fair arbiters of justice.”).

See also Leo E. Strine, Jr., Delaware’s Corporate-Law System: Is Corporate America Buying an Exquisite Jewel or a Diamond in the Rough? A Response to Kahan & Kamar’s Price Discrimination in the Market for Corporate Law, 86 Cornell L. Rev.
1257, 1263 (2001) (corporations are drawn to Delaware, inter
alia, because they know that the “litigation they face . . . will
likely be administered by a Delaware judiciary well schooled in
corporate law and with a track record of producing rational results”).
9

16
In sum, the political balance requirement has endured for decades and across many political administrations in Delaware. In the view of amici, this
norm helps to further public confidence in the Delaware Supreme Court as a fair and impartial arbiter of
the law. Political affiliation may constitutionally be
taken into account in judicial selection, and the specific way Delaware has chosen to do so has provided
significant benefits to the State10 and is well within
its sovereign power. Its choice should have been respected.
B. This Court’s Decisions In Elrod And
Branti Confirm The Constitutionality Of
Delaware’s Judicial-Selection Process.
The First Amendment does not prohibit Delaware
from considering a judicial candidate’s party affiliation as a condition of appointment for the salutary
purpose of ensuring a politically balanced judiciary.
The Third Circuit’s contrary holding is based on a
misunderstanding of this Court’s decisions in Elrod
and Branti.
Specifically, the Third Circuit interpreted those decisions as allowing selection based on political affiliation only for those “employees whose jobs ‘cannot be
performed effectively except by someone who shares
the political beliefs of [the appointing authority].’”
Pet. App. 28a (alteration in original). Because the judicial branch is supposed to be independent of the political branches, id. at 23a-24a, and because “[t]here
can be no serious question that judicial candidates of
See also Strine, The Delaware Way, supra, at 683 (“Although the Delaware system is not perfect, the value it generates
for the United States is considerable and would be difficult for
the federal government to replicate.”).
10

17
different political parties can effectively serve as
state judges,” the court held that “states cannot condition judicial positions on partisan political affiliation alone,” id. at 28a. The Third Circuit’s reasoning
contains two fundamental errors.
First, “[n]either Elrod nor Branti makes anything
turn on the relation between the job in question and
the implementation of the appointing officer’s policies.” Kurowski v. Krajewski, 848 F.2d 767, 770 (7th
Cir. 1988). Instead, the question whether the appointing official may consider a candidate’s partisan affiliation depends on whether the “position is one in
which political affiliation is a legitimate factor to be
considered.” Branti, 445 U.S. at 518.
When, as in Elrod and Branti, the position is in the
executive branch, “political loyalty” to the appointing
official may be an appropriate criterion so “that representative government not be undercut by tactics
obstructing the implementation of policies of the new
administration, policies presumably sanctioned by
the electorate.” Elrod, 427 U.S. at 367 (plurality opinion); see also Branti, 445 U.S. at 518 (governor may
appoint people who “share his political beliefs and
party commitments” to staff positions that help him
“perform[] effectively”). But neither Elrod nor Branti
says that the same test applies to the selection of
judges, which, as shown above, has a separate, constitutionally significant history. See supra, pp. 7-10.
Elrod and Branti had no occasion to consider that
history, and nothing in either opinion suggests that
the longstanding practice of selecting judges based on
party affiliation contravenes the First Amendment.
In fact, an example in Branti suggests that the
practice of selecting judges based on party affiliation
is constitutional. The Court illustrated its scope of its
holding by citing the position of an election judge,

18
whose job is to ensure the fair administration of the
election laws, not to implement the partisan policies
of the appointing official. This Court nevertheless
said that the “position may be appropriately considered political,” because the state could decide to have
a precinct supervised by two judges from different
parties, and then “party affiliation” would be an “appropriate requirement” for the position. Branti, 445
U.S. at 518. This reasoning applies with full force to
judicial selection.
Second, the Third Circuit failed to recognize that
the duties performed by judges, and the role of the
judiciary in our constitutional system, make it permissible to consider party affiliation in the selection
of judges. Judges make policy on important and controversial issues, although they do so in a different
manner and subject to constraints that do not bind
members of the executive or legislature. This point is
clear in Gregory, where this Court described judges
as “in a position requiring the exercise of discretion
concerning issues of public importance.” 501 U.S. at
466-67. It is also clear in appellate court decisions
that acknowledge that judges’ “political beliefs influence and dictate their decisions on important jurisprudential matters.” Newman, 986 F.2d at 163 (citing
Kurowski, 848 F.2d at 770).
Finally, this point is clear to us from our experience
as judges:
Judges are lawmakers. Judges do not simply apply settled principles of constitutional and statutory law to particular disputes. Rather, in important ways, judges themselves determine what
the law is. For example, there are many cases in
which even the most principled of judges, adhering as loyally as possible to traditional methods
of finding the law . . . will still be left with a

19
great deal of policy freedom to decide what practical meaning a statute has.
Leo E. Strine, Jr., If Corporate Action Is Lawful, Presumably There Are Circumstances in Which It Is Equitable to Take That Action: The Implicit Corollary to
the Rule of Schnell v. Chris-Craft, 60 Bus. Law. 877,
877 (2005) [hereinafter Strine, The Implicit Corollary].
Even more obviously, judges act as policymakers in
making common law. “[M]any of the important principles of American-style corporate law come in the
form of judge-made common law.” Id. at 878. See id.
n.1 (“Little in life is value free and certainly not the
making of common law.”). The truth of this proposition is particularly evident in Delaware corporate
law. The relevant statute is not detailed; it authorizes
the States’ courts to create common law. Indeed,
“Delaware judges have frequently crafted dicta to
give valuable guidance to deal lawyers on unanswered questions.” Myron T. Steele & J. W. Verret,
Delaware’s Guidance: Ensuring Equity for the Modern Witenagemot, 2 Va. L. & Bus. Rev. 189, 207
(2007).
Of course, “[t]he judicial making of common law is,
by tradition and by . . . prevailing current practice,
bounded by conventions that help curb the leeway
that individual judges have to shape the law in a
manner that is heavily influenced by their idiosyncratic policy views.” Strine, The Implicit Corollary,
supra, at 877 n.1. We thus agree with the Third Circuit that the judiciary is a separate branch of government that is independent of the executive and legislative branches in Delaware, Pet. App. 24a, as in
other states and the federal government. Moreover,
there is “no serious question that judicial candidates
of different political parties can effectively serve as

20
state judges.” Id. at 28a. But neither of those facts
means that States may not select judges based on
“partisan political affiliation.” Id.
Given their important policy-making role, it is entirely legitimate for political considerations to play a
role in the selection of judges. This practice allows
the public to play some role in the selection of judges
and confers legitimacy on the judiciary that will interpret and apply the law to citizens and the other
branches of government alike. It does not violate the
First Amendment or compromise the independence of
the judiciary. This Court’s cases, history, and common sense demonstrate that after Presidents, governors, legislators, and electorates choose judges based
on their political affiliation, judges thereafter fulfill
their judicial role in an independent and non-partisan
manner.
CONCLUSION
The decision below should be reversed.
Respectfully submitted,
VIRGINIA A. SEITZ*
KATHLEEN MORIARTY MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Amici Curiae
January 24, 2020

* Counsel of Record

